                                                NAnONAL SCIENCE FOUNDA nON
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESnGAnONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 110110050                                                                 Page 1 of 1



         In coordination with NSF, we reviewed l a collection of records,2 containing references to NSF
         and its personnel, that were subject to potential unauthorized release to the public by a non­
         governmental organization. 3

         We detennined that the documents did not contain any sensitive or classified NSF infonnation.
         We concluded that the release of the documents to the public would not compromise or hann
         NSF programs, operations, personnel or researchers.

         According, this case is closed.




NSF OIG Fonn 2 (11102)
